Semiannual Report to Congress 





  Office of Inspector General 



     Federal Election Commission 

     999 E Street, N.W., Suite 940 

       Washington, DC 20463



October 1, 2005 – March 31, 2006 



            May 2006 

                                TABLE OF CONTENTS





EXECUTIVE SUMMARY                           ----------------------------------------------   1      
 


FEDERAL ELECTION COMMISSION                                   ----------------------------   6        


AUDITS           -------------------------------------------------------------------------   8        


HOTLINE COMPLAINTS                          ----------------------------------------------   18


INVESTIGATIONS                     -------------------------------------------------------   19           


ADDITIONAL OFFICE OF INSPECTOR GENERAL 

ACTIVITY -------------------------------------------------------------------------           21           


ECIE AND PCIE ACTIVITY                      ----------------------------------------------   26           


REPORTING REQUIREMENTS                               -------------------------------------   29           


TABLE I - QUESTIONED COSTS                           -------------------------------------   30           


TABLE II - FUNDS PUT TO BETTER USE ----------------------------                              31           


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING             

            FOR MORE THAN SIX MONTHS    -------------------                                  32 


FEC/OIG STRATEGIC PLAN – FY 2005-2010 --------------------------                             33           


CONTACTING THE OFFICE OF INSPECTOR 

GENERAL -------------------------------------------------------------------------            34           





Semiannual Report to Congress – October 1, 2005 – March 31, 2006
                               EXECUTIVE SUMMARY




        I am pleased to submit this Semiannual Report to Congress covering

the period October 1, 2005 through March 31, 2006. This report reflects our

efforts to remain in accordance with the requirements of the Inspector

General Act of 1978, as amended, and summarizes the major activities and

accomplishments of the Federal Election Commission (FEC), Office of

Inspector General (OIG).



        The Executive Summary provides a brief synopsis of accomplishments

and general activities as it relates to the Office of Inspector General and are

described in greater detail in subsequent sections of this report. Our

accomplishments were made possible by the dedicated efforts of a committed

and professional staff.



        The Office of Inspector General is responsible for directing and

carrying out audits, inspections, and investigations related to the Federal

Election Commission programs and operations. The OIG recommends

policies that promote economic, efficient, and effective use of agency resources

and programs that prevent fraud, waste, abuse, and mismanagement. The

OIG is also responsible for keeping Congress and the Commission fully




Semiannual Report to Congress – October 1, 2005 – March 31, 2006            Page 1
informed regarding problems and deficiencies detected in FEC programs and

operations, and the necessity for corrective action.



        The audits performed by the OIG are conducted in accordance with the

Government Auditing Standards issued by the Government Accountability

Office (GAO). The investigations carried out by the OIG comply with the

Quality Standards for Investigations developed by the President’s Council on

Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE).



        During this semiannual reporting period, the OIG completed and

released two audit reports. The first report entitled Audit of the FEC’s

Fiscal Year 2005 Financial Statements – OIG – 05-01 was released

November, 2005. Under a contract monitored by the OIG, Clifton Gunderson,

LLP (CG-LLP), an independent certified public accounting firm, performed

the audit of the FEC’s FY 2005 financial statements.



        The results of the financial statement audit were detailed in three

reports: Report on Compliance with Laws and Regulations; Report on

Internal Control; and the Opinion on the Financial Statements. The results of

CG-LLP’s tests of compliance with laws and regulations described in the

audit report disclosed no instances of noncompliance with the laws and




Semiannual Report to Congress – October 1, 2005 – March 31, 2006              Page 2
regulations that are required to be reported under Government Auditing

Standards and OMB Bulletin No. 01-02.



        CG-LLP’s planning and performance of the audit included

consideration of the FECs internal control over financial reporting. The

auditors limited their internal control testing to those controls necessary to

achieve the objectives described in OMB Bulletin No. 01-02 and consequently

CG-LLP did not provide an opinion on internal control. CG-LLP audited the

balance sheets and the related statements of net cost, changes in net position,

budgetary resources, financing, and custodial activity of the FEC. CG-LLP

issued a qualified opinion on the FEC’s financial statements. Additional

details pertaining to the FY 2005 financial statement audit can be found on

page 12, the section entitled Audits.



        The second audit released by the OIG entitled Audit of the FEC’s

Public Disclosure Process – OIG – 02-03 was conducted to 1) determine

the extent, if any, of disclosure differences between candidate contributions

reported by political committees and related political committee contributions

reported received by candidates, and 2) assess whether an adequate process

is in place to remedy any reporting discrepancies.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006            Page 3
        Our audit examined the extent of disclosure differences within the

Commission’s complex disclosure process and the magnitude of campaign

finance data. We found that disclosure differences generally exist between

the amounts of money reported given by a political action committee (PAC)

and the contributions the candidate reported receiving. Overall, the OIG

believes the FEC consistently constructs, for the most part, an accurate

depiction of financial activities based upon the participation of Congress and

other mandated filers.



        The OIG made a few suggestions for improvement to the disclosure

process. Management concurred with the OIG’s determinations and

acknowledged that there are areas that can be improved within the public

disclosure process. The section entitled Audits starting on page 8, contains

additional information regarding the public disclosure audit.



        The OIG has one audit currently in progress - Audit of the FEC’s

Employee Transit Benefit Program - OIG-06-01, commenced during this

reporting period. The Employee Transit Benefit Program is a federally

mandated program that provides a monthly transit subsidy to eligible

employees who commute by means other than single-occupancy motor

vehicles.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006             Page 4
        The primary objectives of the audit are to 1) assess program policies

and operating procedures for compliance with applicable regulations, 2)

verify employee compliance with program participation requirements, and 3)

ensure the appropriate internal controls are in place. To obtain additional

information pertaining to the audit of the transit benefit program, refer to

page 16.



        At this time, the OIG currently has seven hotline complaints at various

stages. Information related to the hotline complaints can be found on page

18, the section entitled Hotline Complaints. One criminal investigation

was opened and one administrative investigation was closed during this

reporting period. For further details on these investigations, see the

Investigation section which can be found on page 19.



        The section entitled Additional Office of Inspector General

Activity, found on page 21, contains information relating to other activities

the Office of Inspector General was involved in during this reporting period.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 5
               THE FEDERAL ELECTION COMMISSION


        In 1975, Congress created the Federal Election Commission (FEC) to

administer and enforce the Federal Election Campaign Act (FECA). The

duties of the FEC, an independent regulatory agency, are to disclose

campaign finance information; enforce the provisions of the law; and oversee

the public funding of Presidential elections.


        The Commission is made up of six members, who are appointed by the

President and confirmed by the Senate. Each member serves a six-year term,

and two seats are subject to appointment every two years. By law, no more

than three Commissioners can be members of the same political party, and at

least four votes are required for any official Commission action. The

Chairmanship of the Commission rotates among the members each year,

with no member serving as Chairman more than once during his or her term.




                     OFFICE OF INSPECTOR GENERAL




        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,



Semiannual Report to Congress – October 1, 2005 – March 31, 2006          Page 6
waste, and abuse of agency programs and operations while providing

leadership and coordination; 3) recommending policies designed to promote

economy, efficiency, and effectiveness of the establishment; and 4) keeping

the Commissioners and Congress fully and currently informed about

problems and deficiencies in FEC agency programs and operations, and the

need for corrective action.



        The mission of the OIG is to be an independent, objective voice that

aids the Commission by promoting positive change, accountability and

integrity. An inventory of suggested audits, investigations, and inspections

received from a variety of sources is maintained. The most important

challenges on which to focus our work are identified and the final step is to

plan and conduct audits, investigations, and inspections that address those

challenges.



        The OIG follows the standards contained in the Quality Standards for

Federal Offices of Inspector General, published by the President’s Council on

Integrity and Efficiency (PCIE) and the Executive Council on Integrity and

Efficiency (ECIE), and GAO’s Yellow Book. Our investigations comply with

the Quality Standards for Investigations, which has been developed by the

PCIE and ECIE.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 7
                                             AUDITS




TITLE:                             Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                      OIG – 02-03

RELEASE DATE:                      December, 2005

WEBSITE:                           http://www.fec.gov/fecig/disclosure.pdf

PURPOSE:                           The primary objectives of the audit were to: 1)

determine the extent, if any, of disclosure differences between candidate

contributions reported by political committees and related political committee

contributions reported received by candidates, and 2) assess whether an

adequate process is in place to remedy any reporting discrepancies.



        The audit work was conducted between August 2002 and July of 2005.

We performed a significant amount of background research to obtain an

understanding of the FEC’s disclosure process. We also conducted several

preliminary meetings with management and contacted external

organizations for information related to the audit. In order to achieve our

stated objectives, we reviewed pertinent documentation, conducted

interviews with Commission staff and performed extensive analyses of

campaign finance data to identify anomalies and other attributes of the data.

We also developed process narratives and flowcharts which document the




Semiannual Report to Congress – October 1, 2005 – March 31, 2006                     Page 8
functions and processes of the FEC offices primarily responsible for the

disclosure process.



        Specifically, our audit examined the extent of disclosure differences

within the Commission’s complex disclosure process and the magnitude of

campaign finance data. We found that disclosure differences generally exist

between the amounts of money reported given by a political action committee

(PAC) and the contributions the candidate reported receiving. In fact, we

computed a total variance of 1.2 million dollars between PAC contributions

reported disbursed and related PAC contributions reported received by our

judgmental sample of fifty House and Senate candidates.



        The total amount of PAC contributions reported given by the donor

PACs did not equal the total amount of PAC contributions reported received

by the fifty sampled candidates. Furthermore, remote users of the

Commission’s disclosure database are not adequately made aware of

potential reporting discrepancies that could occur among reporting entities.

The disclosure database accessible from the FEC Web site does not warn

users to be cautious when making conclusions from the data files in regards

to a candidate’s campaign financing activity.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006            Page 9
        A variety of campaign factors that are inherently part of the FEC’s

campaign finance disclosure process produce disclosure differences between

the amounts of money reported given by a PAC and the contributions the

candidate reported receiving from the PAC. Differences between reporting

entities can be attributed to: timing disparities, returned PAC contributions,

duplicate transactions, inaccurate or incomplete reporting, inaccurate coding,

the non-reporting of in-kind contributions, and differences in filing

requirements.



        Additionally, we found the lapse in time between PAC reported

disbursements and candidate reported receipts of those disbursements can

also cause disclosure differences. In fact, PAC and candidate transactions

can cross over one or more reporting cycles. Furthermore, we found it

difficult to accurately match a PAC disbursement with the exact candidate

receipt of that PAC disbursement since the donor committee’s identification

number is not required to be included on the contribution check and one PAC

can be known by several different names, acronyms, and abbreviations.



        Overall, we believe the FEC consistently constructs, for the most part,

an accurate depiction of financial activities based upon the participation of

Congress and other mandated filers. To accommodate the evolving nature of

the disclosure database, we found that the Commission has developed sound




Semiannual Report to Congress – October 1, 2005 – March 31, 2006          Page 10
policies and procedures that attempt to prevent, identify, and correct

reporting variances. Thus, the agency continually makes the data available

to provide the electorate with the ability to make educated, informed

decisions on the political process based in part on where candidates for

federal office derive their financial support. However, patrons must

understand that, due to the magnitude and complexity of the mandated

disclosure system, the data must be understood before assumptions are made

regarding a candidate’s campaign financing activities.



        We discovered that the FEC’s Web site doesn’t encourage patrons to

review both sides (donor and recipients) before making assumptions with the

numbers. Nor does the disclosure database effectively disclose the inherent

factors that cause disclosure differences. Considering this, we made a few

suggestions for improvement to the disclosure process. Management

concurred with the OIG’s determinations and acknowledged that there are

areas that can be improved within the public disclosure process.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 11
                                             AUDITS




TITLE:                             Audit of the FEC’s Fiscal Year 2005 Financial
                                   Statements

ASSIGNMENT #:                      OIG – 05-01

RELEASE DATE:                      November, 2005

WEBSITE:                           http://www.fec.gov/fecig/financial05.pdf

PURPOSE:                           The Chief Financial Officers Act of 1990 (Public

Law 101-576, commonly referred to as the “CFO Act”), as amended, requires

the FEC Office of Inspector General (OIG), or an independent external

auditor as determined by the Inspector General, to audit the agency financial

statements. Under a contract monitored by the OIG, Clifton Gunderson LLP

(CG-LLP), an independent certified public accounting firm, performed the

audit of the FEC’s FY 2005 financial statements.



        CG-LLP conducted the audit in accordance with auditing standards

generally accepted in the United States of America; the standards applicable

to financial audits contained in Government Auditing Standards, issued by

the Comptroller General of the United States; and OMB Bulletin No. 01-02,

Audit Requirements for Federal Financial Statements, as amended. The

results of the financial statement audit were detailed in three reports:




Semiannual Report to Congress – October 1, 2005 – March 31, 2006                  Page 12
Report on Compliance with Laws and Regulations; Report on Internal

Control; and the Opinion on the Financial Statements.



Report on Compliance with Laws and Regulations

        FEC management is responsible for complying with laws and

regulations applicable to the agency. To obtain reasonable assurance as to

whether or not the FEC’s financial statements were free of material

misstatements, CG-LLP performed tests of compliance with certain

provisions of laws and regulations, non-compliance with which could have a

direct and material effect on the determination of financial statement

amounts, and certain laws and regulations specified in OMB Bulletin No. 01

02. The results of CG-LLP’s tests of compliance with laws and regulations

described in the audit report disclosed no instances of noncompliance with

the laws and regulations that are required to be reported under Government

Auditing Standards and OMB Bulletin No. 01-02.



Report on Internal Control

        The CG-LLP auditors obtained an understanding of the FEC’s internal

control; determined whether internal controls had been placed in operation;

assessed control risk; and performed tests of controls in order to determine

auditing procedures for the purpose of expressing an opinion on the financial

statements. The auditors limited their internal control testing to those




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 13
controls necessary to achieve the objectives described in OMB Bulletin No.

01-02 and consequently CG-LLP did not provide an opinion on internal

control.



        In performing the testing of internal control necessary to achieve the

objectives in OMB Bulletin No. 01-02, the auditors identified matters relating

to significant deficiencies in the design or operation of FEC’s internal control.

The testing of internal control identified both reportable conditions and

material weaknesses. The American Institute of Certified Public

Accountants (AICPA) categorizes reportable conditions as matters relating to

significant deficiencies in the design or operation of the internal control,

which in the judgment of the auditor, could adversely affect the agency’s

ability to record, process, summarize, and report financial data consistent

with the assertions by management in the financial statements.



        Material weaknesses are reportable conditions in which the design or

operation of one or more of the internal control components does not reduce to

a relatively low level the risk that misstatements, in amounts that would be

material in relation to the financial statements being audited, may occur and

not be detected within a timely period by employees in the normal course of

performing their assigned functions.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006               Page 14
Opinion on the Financial Statements

        CG-LLP audited the balance sheets of the FEC as of September 30,

2005 and 2004, and the related statements of net cost, changes in net

position, budgetary resources, financing, and custodial activity for the years

then ended. In the report dated November 7, 2005, CG-LLP issued a

qualified opinion on the FEC’s financial statements.


        In addition to the three reports issued for the FY 2005 audit, a

management letter was issued on December 9, 2005. The objective of the

management letter is to bring to management’s attention internal control

weaknesses discovered during the audit that did not rise to the level

necessary to be reported in the financial statement audit report.


        Following the conclusion of the audit, the OIG, CG-LLP, and

management met to discuss the lessons learned from the FY 2005 financial

statement audit and to prepare for the FY 2006 audit.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 15
                                             AUDITS




TITLE:                             Audit of the FEC’s Employee Transit Benefit
                                   Program

ASSIGNMENT #:                      OIG – 06-01

RELEASE DATE:                      In Progress

PURPOSE:                           The Employee Transit Benefit Program is a

federally mandated program that provides a monthly transit subsidy to

eligible employees who commute by means other than single-occupancy motor

vehicles. The primary objectives of the audit are to 1) assess program policies

and operating procedures for compliance with applicable regulations, 2)

verify employee compliance with program participation requirements, and 3)

ensure the appropriate internal controls are in place.



        To prepare for the audit, the OIG obtained and reviewed pertinent

documents such as mandated federal guidance on transit subsidies, OIG

audit reports, and other transit benefit programs. A comprehensive audit

guide was developed to satisfy the audit objectives.



        The entrance conference was held with the Finance Office and Human

Resources staff to discuss the objectives of the audit and the audit procedures

to be performed.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006               Page 16
        The OIG reviewed the PeopleSoft Procurement Activity Reports to

determine the number of travel vouchers valued at $1,000 or more.

PeopleSoft is the Commission’s core accounting system used to maintain the

FEC financial information. The OIG held several meetings with the Human

Resources office to discuss management of the transit benefit program. The

Human Resources and Labor Relations office is responsible for reviewing the

transit subsidy program applications to determine eligibility and the amount

of transit subsidy the employee is to receive. The OIG randomly selected

program participants to verify employee compliance with program

participation requirements.



        The agencies SmartBenefits’ program administrator was contacted to

obtain copies of the agency’s SmarTrip claiming reports for the period under

review. The claiming reports are produced by METRO’s online database

system. The reports capture employee transit benefits usage data and will be

used to observe the amount of transit subsidies actually claimed by program

participants during the audit review period.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006        Page 17
                              HOTLINE COMPLAINTS




        The Office of Inspector General established a hotline to enable

employees and others to have direct and confidential contact with the OIG.

The OIG receives complaints through various means such as U.S. mail,

telephone, electronic mail, and personal visits to the OIG. Once a hotline

complaint has been received, a preliminary inquiry is conducted. When the

inquiry has been completed, the hotline complaint can be closed with no

further action taken, referred to management for action, or closed and an

investigation is opened on the issue.



        At the close of this reporting period, the OIG had a total of seven

hotline complaints at various stages. Four hotline complaints are pending

and three hotline complaints are in progress.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006              Page 18
                                    INVESTIGATIONS





        The Office of Inspector General is authorized by the IG Act to receive

and investigate allegations of fraud, waste and abuse occurring within FEC

programs and operations. Alleged incidents of possible fraud, waste and

abuse could include administrative, civil or criminal wrongdoing by FEC

employees or contractors. Allegations are received primarily from FEC staff

and management. However, members of Congress, other agencies, citizens,

contractors, and public interest groups may also refer matters to the OIG for

investigation.


        In conducting investigations during the past few years, the OIG has

sought assistance from, and worked jointly with, other agencies, including

the Federal Bureau of Investigations (FBI), the Department of Justice Public

Integrity Section, the U.S. Postal Service OIG, and others.


        During this reporting period, the OIG opened one criminal

investigation and closed one administrative investigation. The OIG initiated

a criminal investigation in this reporting period as a result of alleged

wrongdoing by one or more FEC employees. The investigation is being

conducted jointly by the OIG and the FBI and the investigative team is

working closely with the United States Attorney's Office for the District of




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 19
Columbia. The investigation is ongoing and the OIG plans to report the

disposition of the investigation in a future semiannual report.


        The OIG also closed one administrative investigation during this

reporting period. The investigation was initiated in a previous reporting

period based on an allegation received concerning the misuse of a government

computer. As part of the OIG’s investigation, the OIG requested computer

forensic assistance from the U.S. Postal Service OIG to analyze the electronic

files found on the government computer to determine if misuse had occurred.


        The investigation findings documented the misuse of a government

computer over a three year period that involved the viewing and downloading

of a substantial amount of sexually explicit material on a government

computer. Due to the nature of the sexually explicit pictures and videos, the

OIG presented the evidence to the U.S. Attorney’s Office for the District of

Columbia to determine whether the material constituted child pornography,

a criminal violation. The Assistant United States Attorney declined criminal

prosecution in lieu of administrative recourse because the material did not

constitute child pornography. The investigative findings were provided to

management and the employee resigned from the Commission after being

presented with the evidence.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006           Page 20
           ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY




        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

provides comments, when appropriate, on all legislation provided by the

PCIE/ECIE Legislative Committee. In addition, the Inspector General

routinely reads all Commission agenda items and attends the Finance

Committee meetings.



             •	 The OIG responded to a survey conducted by the Audit Issues

                 Committee of the Federal Audit Executive Council (FAEC). The

                 committee conducted the survey to determine whether the OIG

                 community would be interested in attending training related to

                 the preparation for and execution of external peer reviews. The

                 training would ensure that all peer reviewers have the same

                 basic understanding of the overall purpose and objectives of an

                 external peer review and to highlight the changes to the OIG

                 community peer review guide. As a result of the survey, the

                 FAEC has scheduled a training session on the peer review

                 process and the OIG’s audit staff is registered to attend the

                 training.



Semiannual Report to Congress – October 1, 2005 – March 31, 2006	                Page 21
             •	 The OIG completed the Access to Information survey which was

                 conducted by the GAO’s Domestic Working Group. The survey,

                 which was sent to all Federal IGs and selected state and local

                 organizations, dealt with problems associated with accessing

                 information and what strategies organizations have found

                 successful in combating any problems in accessing information.



             •	 The OIG responded to a data call regarding the PCIE/ECIE FY

                 2005 annual report. The annual report team asked a series of

                 questions related to the OIG’s audit and investigative statistics

                 and the OIG’s profile data. The information provided will be

                 consolidated and will be included in the PCIE/ECIE Annual

                 Report to the President.



             •	 The OIG contacted the agency’s National Archives and Records

                 Administration (NARA) representative to inquiry about records

                 management policies and procedures specific to OIGs. Meetings

                 were held with the Administrative staff to obtain background

                 information about the project and to discuss the Commission’s

                 records management project. The OIG obtained and reviewed a

                 copy of the Commission’s contract with STG (FEC records




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	             Page 22
                 management contractor) to determine what specific tasks the

                 contractor will complete. According to the contract, STG is to

                 assist the OIG in setting up OIG files to conform to file plans

                 and record schedules.


             •	 The OIG community launched the first PCIE E-Learning

                 initiative during a previous reporting period. The FEC OIG is a

                 participant in this pilot and had the opportunity to utilize the

                 IGEL E-Learning program over the past six months. The OIG

                 community was surveyed to ascertain the program’s overall

                 value to the OIG community. The OIG also completed the IG E-

                 Learning (IGEL) Administrator Survey. This survey was

                 conducted to collect feedback about the administrative process of

                 the IGEL program. The data collected from the survey will be

                 helpful in determining how to improve the support for IGEL

                 program administrators. An IGEL Employee Survey was also

                 completed by the OIG during this reporting period.



             •	 The OIG reviewed a draft copy of the Disaster and Emergency

                 Preparedness Guide, prepared by the PCIE/ECIE Inspection and

                 Evaluation Committee. This guide is to assist IGs with the

                 evaluation of their agency’s emergency preparedness under the

                 National Incident Management System Framework.



Semiannual Report to Congress – October 1, 2005 – March 31, 2006	             Page 23
             •	 On November 22, 2000 the President signed the Reports

                 Consolidation Act of 2000 (Public Law 106-531), an amendment

                 to the Chief Financial Officers (CFO) Act of 1990. The Reports

                 Consolidation Act of 2000 requires Inspectors General to provide

                 a summary and assessment of the most serious management

                 and performance challenges facing Federal agencies and the

                 agencies’ progress in addressing these challenges. Previously,

                 the Federal Election Commission Inspector General was not

                 subject to this requirement, since the FEC was not a covered

                 agency of the CFO Act of 1990. As a result of the enactment of

                 the Accountability of Tax Dollars Act of 2002, the FEC is now

                 subject to these provisions. The Inspector General’s 2005

                 Statement on the Federal Election Commission’s Management

                 and Performance Challenges summarized three areas for

                 inclusion in the Federal Election Commission Performance and

                 Accountability Report (PAR) Fiscal Year 2005: Information

                 Technology Security; Financial Reporting; and Human Capital

                 Management. The Inspector General’s assessment was based on

                 information derived from a combination of several sources;

                 including Office of Inspector General audit and inspection work,




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	             Page 24
                 Commission reports, and a general knowledge of the 


                 Commission’s programs. 




             •	 On a daily basis, the OIG receives a number of e-mail inquiries.

                 During this six-month reporting period, the OIG received a total

                 of 8,732 e-mails - 7,570 of those e-mails were unreadable and

                 1,064 were advertisements or spammed e-mails. The OIG

                 forwarded 98 electronic inquiries to other entities.




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	           Page 25
                             ECIE AND PCIE ACTIVITY




        The President’s Council on Integrity and Efficiency (PCIE) and the

Executive Council on Integrity and Efficiency (ECIE) were established by

Executive Order 12805 – May 11, 1992, to coordinate and enhance

governmental efforts to promote integrity and efficiency, and to detect and

prevent fraud, waste and abuse in Federal programs. The PCIE is comprised

of IGs appointed by the President of the United States. The ECIE consists of

IGs appointed by the head of their respective agencies.



        The Commission’s Inspector General is an active member of the

Executive Council on Integrity and Efficiency and has provided input to a

number of initiatives proposed by the Council. The ECIE serves as a forum

for the exchange of views for the Inspector General Community. The Council

identifies, reviews, and discusses issues that are of interest to the entire IG

Community. The IG attends regular meetings held by the ECIE, and joint

meetings of the President’s Council on Integrity and Efficiency and the

Executive Council on Integrity and Efficiency.



        The OIG employees continually seek ways to improve skills and

knowledge. For the period October 1, 2005 through March 31, 2006, the



Semiannual Report to Congress – October 1, 2005 – March 31, 2006            Page 26
Inspector General and/or the OIG staff attended the following training,

meetings, programs, seminars, and/or conferences:



        •	 ECIE – Monthly Meetings

        •	 PCIE – Financial Statement Audit Network (FSAN) Meeting

        •	 PCIE – Inspection & Evaluation Roundtable Discussion

        •	 PCIE / ECIE – Federal Audit Executive Committee (FAEC) Meeting

        •	 PCIE / ECIE – Inspector General E-Learning (IGEL) Users Meeting

        •	 PCIE / ECIE – SkillSoft Training Program – Introduction to
           Auditing

        •	 PCIE / ECIE – SkillSoft Training Program – You and Your Time

        •	 PCIE / ECIE – SkillSoft Training Program – Competency Program
           Courses

        •	 PCIE / ECIE – SkillSoft Training Program – Delivering Your
           Message

        •	 PCIE / ECIE – SkillSoft Training Program – Avoiding Errors in
           Usage and Punctuation

        •	 PCIE / ECIE – Computer Crime and Intellectual Property Section’s
           (CCIPS) OIG Community Cyber Summit

        •	 Small Agency Council – Contracting Basics for Contracting Officer’s
           Technical Representatives (COTR) Training

        •	 Inspector General Management Institute (IGMI) – Professional
           Development Training

        •	 Association of Government Accountants (AGA) – Leadership
           Meeting

        •	 METRO – Smart Benefits Employer Seminar




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	         Page 27
        •	 Zylab, Inc. – Information Technology (IT) Training

        •	 Federal Election Commission – EEO Management Training

        •	 Federal Election Commission – Administrative Liaison Group
           Meetings

        •	 Federal Election Commission – Time and Attendance Refresher
           Training

        •	 Federal Election Commission – Occupant Emergency Plan (OEP)
           Meeting




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	       Page 28
IG ACT                    REPORTING REQUIREMENTS                                             PAGE



Reporting requirements required by the Inspector General Act of 1978, as amended
by the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)           Review of Legislation              -----------------------------           21

Section 5(a)(1)           Significant Problems, Abuses, and
                          Deficiencies -------------------------------------------------         None

Section 5(a)(2)           Recommendations with Respect to
                          Significant Problems, Abuses, and
                          Deficiencies -------------------------------------------------         None

Section 5(a)(3)           Recommendations Included in Previous
                          Reports on Which Corrective Action Has
                          Not Been Completed-(Table III)    --------------------                     32

Section 5(a)(4)           Matters Referred to Prosecuting
                          Authorities -------------------------------------------------          None

Section 5(a)(5)           Summary of Instances Where Information
                          was Refused -------------------------------------------------          None

Section 5(a)(7)           Summary of Significant Reports              --------------------            8

Section 5(a)(8)           Questioned and Unsupported Costs-(Table I) ------                          30

Section 5(a)(9)           Recommendations that Funds be put
                          to Better Use (Table II) -------------------------------                   31

Section 5(a)(10)          Summary of Audit Reports issued before
                          the start of the Reporting Period for which
                          no Management Decision has been made ------------                      N/A

Section 5(a)(11)          Significant revised Management Decisions ----------                    N/A

Section 5(a)(12)          Management Decisions with which the
                          Inspector General is in Disagreement                  ------------     None




Semiannual Report to Congress – October 1, 2005 – March 31, 2006                                     Page 29
                                              TABLE I


                    INSPECTOR GENERAL ISSUED REPORTS 

                         WITH QUESTIONED COSTS




                                                               DOLLAR VALUE (in thousands)

                                                              QUESTIONED    UNSUPPORTED
                                            NUMBER              COSTS         COSTS


A. 	 For which no Management                    0                   0            [0]
    decision has been made by
    commencement of the reporting
    period


B. 	 Which were issued during                   0                   0            [0]
     the reporting period

        Sub-Totals (A&B)                        0	                  0            [0]


C. 	 For which a Management                     0                   0            [0]
     decision was made during
    the reporting period

        (i) 	 Dollar value of disallowed        0                   0            [0]
              costs

        (ii) 	Dollar value of costs             0                   0            [0]
              not disallowed


D. 	 For which no Management                    0                   0            [0]
    decision has been made by the
    end of the reporting period


E. 	 Reports for which no Management            0                   0            [0]
     decision was made within
    six months of issuance




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	                      Page 30
                                              TABLE II 


           INSPECTOR GENERAL ISSUED REPORTS WITH 

       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE





                                                              NUMBER    DOLLAR VALUE
                                                                         (in thousands)


A. 	     For which no Management                                    0         0
         decision has been made by
         the commencement of the
         reporting period

B. 	     Which were issued during                                   0         0
         the reporting period

C. 	     For which a Management                                     0         0
         decision was made during
         the reporting period

         (i) 	    dollar value of                                   0         0
                  recommendations
                  were agreed to by
                  Management

                  based on proposed                                 0         0
                  Management action

                  based on proposed                                 0         0
                  legislative action

         (ii) 	   dollar value of                                   0         0
                  recommendations
                  that were not agreed
                  to by Management

D. 	     For which no Management                                    0         0
         decision has been made by
         the end of the reporting period

E. 	     Reports for which no                                       0         0
         Management decision
         was made within six months
         of issuance




Semiannual Report to Congress – October 1, 2005 – March 31, 2006	                    Page 31
                                             TABLE III 


    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS 

         OUTSTANDING FOR MORE THAN SIX MONTHS





                                                                   Recommendations



                                   Report           Issue
Report Title                       Number           Date           Number   Closed Open

Audit of the FEC’s Fiscal          OIG-04-01        12/04            42       12     30
 Year 2004 Financial
 Statements




Semiannual Report to Congress – October 1, 2005 – March 31, 2006                   Page 32
                                                      FEC / OIG Strategic Plan - Fiscal Years 2005 - 2010
                                                            OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                            processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                            the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                            resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                          diverse and motivated employees.
 positive change.	                                            Objective A: Maintain a dynamic strategic
                                                              planning process.                                              Strategy:
                                                                                                                             - develop and implement a comprehensive recruiting program

 Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,

 - establish common OIG standards for communicating           Strategy:

                                                                                                                             abilities, and expertise necessary to make meaningful

 results;                                                     - periodically review and update the strategic plan to

                                                                                                                             contributions to the OIG;

 - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,

                                                                                                                             - assess employee satisfaction and develop strategies to address

 - solicit appropriate internal and external review and       - identify factors that influence organizational change and

                                                                                                                             employee concerns;

 comment;                                                     develop short and long term plans to address them.

                                                                                                                             - identify reasons for staff departures and develop plans to foster

 - comply with applicable statutory guidelines and
                                                                          greater staff retention; and,

 standards;
                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.
                                                                                force.


 Objective B: Address priority issues and
 concerns of the Commission,                                  Objective B: Plan and conduct cost-
 Management, and Congress.                                    effective work that address critical issues                    Objective B: Provide training and developmental
                                                              and results in positive change.                                opportunities to employees.
 Strategy:     Perform work that supports;

 - Federal Election Commission and Congressional              Strategy:

 priorities;
                                                                                                                Strategy:
                                                              - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also

 - Strategic Management Initiative efforts;	
                                                              activities;                                                    office needs as well;

                                                              - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to

 Focus OIG attention in the following areas of emphasis:	
                                                              goals and priorities;                                          training are adhered to; and,

 - managing change;	
                                                              - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational

 - resource allocation in relation to policy objectives;	
                                                              and,                                                           requirements are met.

 - delivery of client service;
                                                              - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,	
                                                              cost-effective
 - automation and communication.




                                                              Objective C: Identify customer needs and
                                                              provide products and services to meet
 Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                     when possible, performance that contributes to
 assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
 positive change.	                                            - establish new customer feed back mechanisms;
                                                              - consider and evaluate customers feedback when
                                                                                                                             Strategy:
                                                              planning and developing products and services;
 Strategy:                                                    - respond to Congressional inquires and request for
                                                                                                                             - develop and articulate expectations for each employee's

 - Identify, as appropriate, lessons learned to improve	                                                                     performance, including contributions in meeting the mission &

                                                              briefing and testimony;
 timeliness and quality; and,	                                                                                               goals of the OIG; and,

                                                              - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended	                                                                       - ensure that rewards, when possible, are given in recognition of

                                                              outreach and through use of e-mail; and,
 results have been achieved.	                                                                                                exceptional employee performance.

                                                              - receive, evaluate, and respond, as appropriate, to
                                                              information received through the OIG hotline and other
                                                              sources.


 Objective D: Satisfy customers,	                             Objective D: Implement efficient, effective,
 consistent with the independent nature of	                                                                                  Objective D: Create and maintain a working
                                                              and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.	                                                    procedures.                                                    effective communication.
 Strategy:	                                                   Strategy:
 - establish professional communication and interaction                                                                      Strategy:
                                                              - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                       - ensure that communication between employees is open;
                                                              management is aware of their role in the process;
 - incorporate customer feedback, as appropriate; and,                                                                       - provide employees with the tools and incentives they need to
                                                              - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                               adequately perform their duties.
                                                              maintenance and communications.
 options.


                                                              Objective E: Establish a positive and
                                                              productive working environment.

                                                              Strategy:
                                                              - reengineer or streamline OIG procedures to achieve the
                                                              most effective use of resources; and,
                                                              - ensure that necessary technologies, evolving and
                                                              otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                   plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                        reviewed; and, necessary technology is                         performance standards; and all employees meet
 with management on at least 90% of                           provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                         efficiently perform their duties.                              they were hired to perform.
 the report issue date.


___________________________________________________________________________________________
Semiannual Report to Congress – October 1, 2005 – March 31, 2006 	                                                                                                              Page 33
   CONTACTING THE OFFICE OF INSPECTOR GENERAL 



The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at: 	 Federal Election Commission
                                                              Office of Inspector General
                                                              999 E Street, N.W., Suite 940
                                                              Washington, DC 20463

                                              Mail is opened by OIG staff members only.




                       You can also contact us by e-mail at: oig@fec.gov.
                 Website address: http://www.fec.gov/fecig/fecig.shtml.

Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.



Semiannual Report to Congress – October 1, 2005 – March 31, 2006	                        Page 34
